HHS/OIG, Audit -"Audit of Nursing Facility Staffing Requirements at Poplar Grove Care Center,"(A-07-03-04025)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Audit of Nursing Facility Staffing Requirements at Poplar Grove Care Center," (A-07-03-04025)
December 3, 2003
Complete
Text of Report is available in PDF format (276 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine whether Poplar Grove Care Center (Poplar Grove) was in
compliance with Federal and State staffing laws and regulations for nursing facilities.  Poplar Grove is a 95 bed
nursing facility located in Commerce City, Colorado.  Poplar Grove complied with Federal and State staffing laws and
regulations with one exception.  State regulations require that a nursing care facility shall be staffed at all times
with at least one registered nurse who is on duty on the premises.  However, Poplar Grove did not always have a registered
nurse on the premises during the evening shift.  Poplar Grove officials indicated that it is difficult to employ a
registered nurse during the evening shift.   The lack of a registered nurse on the premises at all times may
result in a reduction in the quality of care received by residents.  We recommended that Poplar Grove make additional
efforts, including expanding its hiring efforts, to ensure that the facility is staffed at all times with a registered
nurse.